<html>
<title> - [H.A.S.C. No. 111-184]CONTINUED ENGAGEMENT: DEPARTMENT OF DEFENSE RESPONSES TO THE HOUSE ARMED SERVICES COMMITTEE APRIL 2010 REPORT ON PROFESSIONAL MILITARY EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-184]
 
  CONTINUED ENGAGEMENT: DEPARTMENT OF DEFENSE RESPONSES TO THE HOUSE 
  ARMED SERVICES COMMITTEE APRIL 2010 REPORT ON PROFESSIONAL MILITARY 
                               EDUCATION

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 30, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
63-159                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
SUSAN A. DAVIS, California           WALTER B. JONES, North Carolina
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JOE SESTAK, Pennsylvania             TRENT FRANKS, Arizona
GLENN NYE, Virginia                  CATHY McMORRIS RODGERS, Washington
CHELLIE PINGREE, Maine               DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
                Lorry Fenner, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Famid Sinha, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, November 30, 2010, Continued Engagement: Department of 
  Defense Responses to the House Armed Services Committee April 
  2010 Report on Professional Military Education.................     1

Appendix:

Tuesday, November 30, 2010.......................................    29
                              ----------                              

                       TUESDAY, NOVEMBER 30, 2010
  CONTINUED ENGAGEMENT: DEPARTMENT OF DEFENSE RESPONSES TO THE HOUSE 
  ARMED SERVICES COMMITTEE APRIL 2010 REPORT ON PROFESSIONAL MILITARY 
                               EDUCATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Hebert, Lernes J., Acting Director, Officer and Enlisted 
  Personnel Management, Office of the Under Secretary of Defense 
  for Personnel and Readiness....................................     2
Hix, BG William C., USA, Director, Operational Plans and Joint 
  Force Development, J-7, Joint Chiefs of Staff..................     3
Lutterloh, Scott, Director, Total Force Training and Education 
  Division, U.S. Navy............................................     6
MacFarland, BG Sean B., USA, Deputy Commandant, Command and 
  General Staff College, U.S. Army...............................     4
Neller, Maj. Gen. Robert, USMC, President, Marine Corps 
  University.....................................................     9
Sitterly, Daniel R., Director of Force Development, Deputy Chief 
  of Staff, Manpower and Personnel, U.S. Air Force...............     7

                                APPENDIX

Prepared Statements:

    Hebert, Lernes J.............................................    37
    Hix, BG William C............................................    41
    Lutterloh, Scott.............................................    59
    MacFarland, BG Sean B........................................    46
    Neller, Maj. Gen. Robert.....................................    68
    Sitterly, Daniel R...........................................    64
    Snyder, Hon. Vic.............................................    33
    Wittman, Hon. Rob, a Representative from Virginia, Ranking 
      Member, Subcommittee on Oversight and Investigations.......    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  CONTINUED ENGAGEMENT: DEPARTMENT OF DEFENSE RESPONSES TO THE HOUSE 
  ARMED SERVICES COMMITTEE APRIL 2010 REPORT ON PROFESSIONAL MILITARY 
                               EDUCATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                        Washington, DC, Tuesday, November 30, 2010.
    The subcommittee met, pursuant to call, at 9:07 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
       ARKANSAS, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Dr. Snyder. Good morning and welcome to the Subcommittee on 
Oversight and Investigations' hearing on the views of the 
Secretary of Defense, Chairman of the Joint Chiefs of Staff and 
the uniform heads of services on the House Armed Services 
Committee report on professional military education. The title 
of our report was ``Another Crossroads? Professional Military 
Education Two Decades After the Goldwater-Nichols Act and the 
Skelton Panel.''
    In April 2010, after more than a year of studies and 
hearings and site visits by both members and staff to all the 
relevant institutions, the subcommittee published this report 
with 39 findings and recommendations. The report examined 
officer in-residence PME [professional military education] as a 
critical investment in the most important element of our 
military--our people. We concluded that the United States 
cannot afford to be complacent when it comes to producing 
leaders capable of meeting significant challenges whether at 
the tactical, operational, or the strategic levels of warfare. 
Further, as a matter of national security, the country's 
continuing investment in the PME system must be wisely made.
    We also found that although today's PME system is basically 
sound, there are areas that need improvement. The committee's 
report of the National Defense Authorization Act for Fiscal 
Year 2011 required that the Department's most senior leaders 
provide their views on the subcommittee's PME report.
    DOD [Department of Defense] leadership provided their views 
in September and indicated they largely agreed with our 
findings and recommendations. We are here today to hear what 
they agreed with, what they disagreed with and plans for moving 
forward, and also any thoughts about what our report and the 
ongoing discussions left out as our country moves forward on 
looking at professional military education.
    We have a fairly large group of witnesses today. And you 
know how the reality is; if you all make an hour-long opening 
statement, I am not going anywhere, I don't have an office 
anymore, so this is fine with me to sit here, but you all may 
have better things to do. But we have your opening statements. 
They will be made a part of the record.
    And I also want to acknowledge the presence of 
Representative Davis from California, who is the current 
chairperson, will be the ranking member in the new Congress, on 
Military Personnel [Subcommittee]. And as you know, this 
subcommittee does not have legislative jurisdiction, but the 
Military Personnel Subcommittee does. And she has had an 
ongoing interest and will be here in the new Congress.
    So we are joined today by--is it Lernes?
    Mr. Hebert. Lernes.
    Dr. Snyder. Mr. Lernes Hebert, the acting Director, Officer 
and Enlisted Personnel Management, Office of the Deputy Under 
Secretary of Defense; Brigadier General William Hix, Director 
for Operational Plans and Joint Force Development, J7, Joint 
Chiefs of Staff; Brigadier General Sean MacFarland, Deputy 
Commandant, Command and General Staff College, U.S. Army; Mr. 
Scott Lutterloh, Director of Total Force Training and Education 
Division, U.S. Navy; Mr. Dan Sitterly, Director of Force 
Development, Deputy Chief of Staff, Manpower and Personnel, 
U.S. Air Force; Major General Robert Neller, President of the 
Marine Corps University, U.S. Marine Corps.
    Thank you all for being here. Is this the order we are 
going to go down? We will begin with you. And we will put the 
clock on for 5 minutes. If you see the red light fire off, we 
are not going to set off flares or anything, but----
    Mr. Hebert. It won't take that long.
    Dr. Snyder. Okay. Good. Why don't you go ahead?
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 33.]

  STATEMENT OF LERNES J. HEBERT, ACTING DIRECTOR, OFFICER AND 
ENLISTED PERSONNEL MANAGEMENT, OFFICE OF THE UNDER SECRETARY OF 
              DEFENSE FOR PERSONNEL AND READINESS

    Mr. Hebert. Yes, sir. Chairman Snyder, members of the 
committee, on behalf of the Secretary of Defense and the Under 
Secretary of Defense of Personnel and Readiness, I want to 
extend our appreciation for the committee's interest in 
improving professional military education. The Department is in 
the process of analyzing the recommendations of the committee's 
report on this subject and reporting back to the Congress on 
the proposed changes to the Department's policies and 
procedures. We take this task very seriously. We are using a 
senior-level review panel to properly evaluate each 
recommendation; and while I will not presuppose their 
deliberations, the Department's initial review indicates broad 
support for almost all of the recommendations and with the 
exception of a few that we believe require further study.
    That being said, the Department has already taken action on 
some of the recommendations. For example, in fiscal year 2009, 
we asked the Director of the Joint Staff to review JPME I 
[Joint Professional Military Education Phase I] instructor 
positions to see if the positions could qualify for joint duty 
credit. This report has been reviewed by the Under Secretary of 
Defense for Personnel Readiness and forwarded to the House 
Armed Services Committee. In addition, the Department proposed 
a legislative change to remove the JPME I instructor 
prohibition specified in Title 10, which specifically addresses 
a recommendation in the report. This places these positions on 
equal footing with similar positions across the Department.
    The Department also agrees with the committee findings that 
the professional military education system is sound but could 
use some improvements to become more flexible and attuned to 
emerging requirements. The Congress aided this effort 
immeasurably by passing legislation in 2007, the National 
Defense Authorization Act, allowing the Department to move 
beyond the recognition of simple interservice operations and to 
recognize interagency and international experiences.
    This single change, along with the flexibility provided to 
adapt career-long joint qualifications, is the type of 
proactive engagement described by the committee's report. 
Officers are now being recognized for significant joint 
experiences in Iraq and Afghanistan and other temporary 
operations not initially described in the charter Goldwater-
Nichols legislation.
    By extension, these experiences are being institutionalized 
by more diverse student populations and broader curricula at 
professional military education institutions. The mere fact 
that these are now recognizable joint experiences, in turn, 
leads to an officer corps who will seek out attainment of these 
desirable education experiences and opportunities in these 
areas.
    Again, I want to thank you for this opportunity to testify 
on behalf of the Secretary and Under Secretary of Defense for 
Personnel Readiness on this topic. I look forward to your 
questions.
    [The prepared statement of Mr. Hebert can be found in the 
Appendix on page 37.]
    Dr. Snyder. General Hix.

  STATEMENT OF BG WILLIAM C. HIX, USA, DIRECTOR, OPERATIONAL 
 PLANS AND JOINT FORCE DEVELOPMENT, J-7, JOINT CHIEFS OF STAFF

    General Hix. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to discuss your----
    Dr. Snyder. Pull that microphone a little closer to you if 
you wouldn't mind.
    General Hix. Yes, sir. Thank you for this opportunity to 
discuss the subcommittee's report. joint professional military 
education is and will remain an essential pillar of joint 
officer development, a Chairman of the Joint Chiefs of Staff 
focus area. And we appreciate the subcommittee's continued 
emphasis on and support for joint professional military 
education across the entire education enterprise in the 
Department of Defense.
    We welcome the subcommittee's review and we broadly concur 
with the report's conclusion that the professional military 
education system is basically sound and that there are systemic 
and institutional areas that require our continued attention. 
As you are aware, the Joint Staff continues in conjunction with 
our service and DOD partners, a cross-Department effort to 
analyze the report's recommendations. We expect this analysis 
to inform decisions this winter.
    While this effort continues, our preliminary conclusion 
gives broad endorsement to the report at the macro level. In 
conjunction with the Offices of Secretary of Defense and the 
services, the Joint Staff will continue to work through the 
report's recommendations in the coming months.
    That said, our expectation is that the results of this 
effort will ultimately drive changes in policy and procedure, 
including the chairman's Officer Professional Military 
Education Policy, which guides joint professional military 
education across the services. We will persist in exploring all 
available avenues to improve and expand joint education to 
ensure our forces are equipped with the critical thinking 
skills and mental dexterity needed to succeed in all 
environments.
    One such initiative to expand access to opportunities for 
rigorous joint education is our proposal for authority to allow 
the Joint Forces Staff College to provide an alternative 
nonresident Joint Professional Military Education Phase II 
program hosted by the combatant commands and the Joint Staff at 
offsite locations. That would be 10 locations in all. The 
proposal was carried in the Senate Armed Services Committee 
mark for the 2011 National Defense Authorization Act and we 
welcome this subcommittee's support.
    As in all of our endeavors, Congress' consistent support of 
joint professional military education has and will continue to 
enable us to maintain a vibrant and relevant education 
enterprise. And for that, we are truly appreciative. I stand 
ready to address your questions. Thank you for this 
opportunity.
    [The prepared statement of General Hix can be found in the 
Appendix on page 41.]
    Dr. Snyder. General MacFarland.

  STATEMENT OF BG SEAN B. MACFARLAND, USA, DEPUTY COMMANDANT, 
          COMMAND AND GENERAL STAFF COLLEGE, U.S. ARMY

    General MacFarland. Mr. Chairman and members of the 
subcommittee, General Casey asked me to represent him here 
today because of my responsibilities, which include leader 
development for all warrant officers and all officers between 
the rank of captain and lieutenant colonel. And it is my 
pleasure to be able to provide input on the ``Another 
Crossroads'' report today and update you on the continuing 
progress in the Army's professional military education 
programs.
    General Casey provided his personal insights in his letter 
on 6 October, and my job is to provide some additional details 
and also answer any questions that you might have. As General 
Casey noted, the Army appreciates the comprehensive review 
conducted by this committee. And we thank in particular, Dr. 
Lorry Fenner and her team, for the quality of their work and 
the positive and professional manner in which they carried it 
out. And we have learned a lot from that experience and we have 
already begun to move forward on some of the findings and 
recommendations.
    The Army fully participated in the survey and concurs with 
the analysis, observations, and recommendations. It is 
important for me to note that the Army has just approved the 
Army Learning Concept 2015, which is a comprehensive approach 
to education and training throughout the Army, and it includes 
the schools that the report discusses.
    And I want to begin my remarks by providing a few of the 
most important examples of how the ALC [Army Learning Concept] 
2015 supports the findings of ``Another Crossroads.''
    One of your key findings noted that DOD should explore 
innovative avenues to develop the respective officer corps 
through education, training, assignments or experience. The 
cornerstone of ALC 2015 is, in fact, supporting a balance of 
education, training and experience over a career of 
professional growth and development. The document that will 
guide the Army through the process of change, and innovation in 
its education and training is this ALC. And it applies to all 
cohorts within the Army: civilian, noncommissioned officers, 
warrant, and commissioned. But it is clearly in step with your 
recommendations.
    Also, we recognized the finding that we needed a central 
focal point or a full-time director of military education and 
the ALC 2015 does that. The position is called the Chief 
Learning Innovation Officer, or CLIO. And he will be a key 
advisor to the Training and Doctrine Command's Commander, 
General Dempsey, on military education. ``Another Crossroads'' 
also observed that TRADOC has been designated the manager for 
human capital development for the Army. And although we are 
early in that process, we believe that ALC 2015 reinforces our 
commitment to continued improvement of PME in the Army. We 
don't consider leader development just to be those times spent 
in the schoolhouse, but it is something that happens throughout 
your career. And now we are trying harder to ensure that we get 
the PME windows when it is needed and not just when officers 
are available.
    I do want to highlight one place where we disagree with the 
report, and that is probably because we didn't provide the 
necessary information to your team and it may have led to some 
confusion. CGSC, Command and General Staff College, does, in 
fact, have 70 percent civilian faculty, but they are not 
contractors as the report stated. We only have a couple of 
contractors and they mostly work in the Digital Leader 
Development Center and not as primary instructors.
    Finally, I just want to thank the committee for support on 
two issues critical to PME. First is extending JDAL [Joint Duty 
Assignment List] credit to our nonhost officers. That is 
critical, we believe, to providing high-quality JPME I credit 
to our students at intermediate level education. And secondly, 
we think that the committee did a great service by shining a 
light on the need for copyright ownership of scholarly works 
produced by our faculty. And your support of the Platts-Skelton 
amendment will improve the ability of our faculty to get 
published. And that will, we believe, enhance recruiting for 
civilian faculty members to come to our schools.
    Finally, I just wanted to thank you for the opportunity to 
share the Army's views with you today, and we are already 
moving forward with many of the issues noted and this report 
will guide PME in the future just as its predecessor, the 
Skelton report, has for the past 20 years. And I stand ready to 
answer any questions. Thank you, sir.
    [The prepared statement of General MacFarland can be found 
in the Appendix on page 46.]
    Dr. Snyder. Thank you, General. Mr. Lutterloh.

 STATEMENT OF SCOTT LUTTERLOH, DIRECTOR, TOTAL FORCE TRAINING 
               AND EDUCATION DIVISION, U.S. NAVY

    Mr. Lutterloh. Good morning. Chairman Snyder, 
Representative Davis, and distinguished members of the 
Oversight and Investigation Subcommittee, thank you for the 
opportunity to discuss the Navy's views on the committee's 
April 2010 report, ``Another Crossroads? Professional Military 
Education Two Decades After the Goldwater-Nichols Act and the 
Skelton Panel.''
    We appreciate the subcommittee's efforts in conducting such 
a comprehensive assessment of professional military education 
since enactment of Goldwater-Nichols. The major findings are 
accurate in identifying the fundamental issues warranting 
critical deliberation as we continue in our commitment to 
improve PME and the professional development of our officer 
corps.
    We concur with the subcommittee's assessment that the PME 
system is sound. As with any program, there are areas for 
potential improvement. Navy places significant value on PME as 
we develop and enable resilient and adaptable leaders to meet 
challenges at the tactical, operational, and strategical levels 
of war.
    Navy continues to emphasize PME as we provide unique and 
complementary maritime warfighting skills to joint and combined 
force commanders.
    In response to the need for increased joint and service-
specific subject matter to be taught earlier in an officer's 
career, Navy established a career continuum of PME. We have a 
sequence continuum of learning that provides relevant education 
aligned to clear progression, spanning E-1 through O-8, with a 
goal of providing Navy's Total Force with a standardized, 
comprehensive understanding of the Navy and its warfighting 
capabilities.
    We are currently evaluating the report's recommendation 
that Navy consider instituting a quality board process for 
selection of the in-residence PME students by evaluating our 
screening process of top-performing officers for eligibility to 
attend service colleges. Under the leadership of the Vice Chief 
of Naval Operations, the Navy has appointed a cross-functional 
working group to evaluate the current selection processes for 
JPME in-residence education.
    We concur with the report's observation, that while PME is 
a factor in cultivating strategists, it is not the primary 
means for developing future strategic decisionmakers. As noted 
in the report, Navy has a relatively advanced process for 
cultivating strategists. We acknowledge there is more to be 
done with respect to developing strategic decisionmakers, and 
are actively engaged in a review of how we develop our senior 
leaders. Competing demands for time in a career track of 
officers of the unrestricted line remains a primary challenge.
    Recently, we implemented new approaches to officer 
development through introduction of specialty career paths for 
unrestricted line officers. These specialty career paths allow 
Navy to better integrate training, education, and experiential 
tours focused on specialty areas while officers continue to 
serve in their warfare communities.
    Navy takes a balanced approach to professional education 
that views operational competency and primacy of command as key 
professional measures for naval officers. professional military 
education has been instrumental in developing a highly educated 
and more effective leader. We value the flexibility provided by 
the Chairman of the Joint Chiefs of Staff which permits Navy to 
manage the content, quality, and conduct of our PME continuum.
    On behalf of the Chief of Naval Operations and the entire 
Navy, thank you again for your exceptionally strong support of 
our military members and their family and for your career-long 
leadership in the professional development of our Navy Total 
Force.
    [The prepared statement of Mr. Lutterloh can be found in 
the Appendix on page 59.]
    Dr. Snyder. Thank you. Mr. Sitterly.

STATEMENT OF DANIEL R. SITTERLY, DIRECTOR OF FORCE DEVELOPMENT, 
  DEPUTY CHIEF OF STAFF FOR MANPOWER AND PERSONNEL, U.S. AIR 
                             FORCE

    Mr. Sitterly. Thank you, Mr. Chairman and members of the 
subcommittee, for the opportunity to discuss Air Force Chief of 
Staff Schwartz's views on the ``Crossroads'' report. This is 
the fourth time in this Congress I have had the opportunity to 
testify on airmen development. Each time you help us to fine-
tune the development of our most important weapons system, our 
Total Force airmen. Thank you.
    We continue to develop talented and diverse airmen at the 
tactical, operational, and strategic level. We concur with the 
report's general tenet that the professional military education 
system is still basically sound, but with systemic and 
institutional areas that require a heightened focus and effort 
to improve. We endorse the idea that education has to be 
relevant to the student and the service, as well as inseparable 
from the execution of our developmental doctrine in support of 
service and joint organizational requirements.
    The relevancy of education is one of the main premises that 
drive our desire and our ability to incorporate joint and 
service-specific subject matter into our curriculum and deliver 
that content to officers earlier in their careers, all in an 
effort to anticipate and adapt to current and future 
challenges.
    Central to the report's concern and our focus is the 
necessity to develop strategists. Combined with a strong 
fellowship program, we recently added advanced academic degree 
opportunities in history, political science, international 
relations, economics, and philosophy to our portfolio. These 
new educational experiences are being earned at some of the 
Nation's most prestigious universities.
    To an increased focus on critical thinking at junior 
levels, we are developing an officer corps that is capable of 
and empowered to solve the problems they will encounter 
throughout their careers.
    I should also mention the importance we place on continuum 
of service in our country's entire national security arena. 
While we are all familiar with how strategic thinking airmen 
like Norty Schwartz and [General] Duncan McNabb transformed 
TRANSCOM's [Transportation Command] development and 
distribution operations--pardon me--deployment and distribution 
operations to the warfighter, for instance, let's not forget 
those airmen cultivated to think strategically who still serve 
in our country's defense out of uniform.
    Dr. Lorry Fenner of this committee received her Ph.D. in 
history and is now one of the foremost authorities on military 
human capital in our country. Colonel (retired) Will Gunn leads 
the Veterans Administration's general counsel office. Colonel 
Hal Hoxie is making strategic decisions in matters incredibly 
important to our country and to the future of America as the 
President of Central Christian College. Airman Les Lyles is a 
defense industry strategic thinker, as well as Chairman of the 
Congressional Military Leadership Diversity Commission. Mark 
Clanton, Chuck Bush, Jim Finch, Chuck Greenwood, Blaine Tingle, 
Charles Garcia, are all involved in strategic thinking in the 
national security business every day using the education and 
experience developed in our Air Force.
    Our primary PME mission is on the application of military 
power, but our development programs directly contribute to the 
diplomatic, international, and economic instruments both in and 
out of uniform.
    Beyond content and delivery, we also concur with the 
report's finding that we have a need to address faculty and 
resource concerns at our institutions; therefore, we are in the 
process of reviewing policies regarding our hiring practices, 
job advancement, and academic freedom, as well as copyright and 
intellectual property concerns.
    The Air Force has made significant advances in the past two 
years in our approach to developmental education. We have upped 
our game with a new on-line Air Command and Staff College 
program to complete transformation of company-grade officer 
professional military education, new advanced courses within 
Air Command and Staff College and Air War College, and expanded 
enrollment in progress toward a doctoral program in the School 
of Advanced Air and Space Studies.
    These efforts, combined with conducive military personnel 
and developmental opportunities, will allow us to continue 
forging the synergistic relationship between Air Force 
training, experience, and education.
    As evidenced by the ``Crossroads'' report, your insight and 
continued support ensures our ability to fly, fight, and win in 
aerospace and in cyberspace. Thank you. I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Sitterly can be found in the 
Appendix on page 64.]
    Dr. Snyder. Thank you, Mr. Sitterly. General Neller.

 STATEMENT OF MAJ. GEN. ROBERT NELLER, USMC, PRESIDENT, MARINE 
                        CORPS UNIVERSITY

    General Neller. Chairman Snyder, Representative Davis, good 
morning. Thank you for permitting me to discuss and represent 
the Marine Corps' views on the report, ``Another Crossroads.'' 
The Marine Corps deeply appreciates the extensive research, 
analysis, and documentation contained in the report.
    The work of the subcommittee provided a thorough assessment 
of the status of PME and, more importantly, provided sound 
recommendations on a variety of issues that will improve our 
educational programs. We have carefully reviewed the report and 
are already at work implementing many of the recommendations.
    Additionally, we continue to work closely with the Joint 
Staff and the other services to ensure a coordinated approach 
as we examine each issue.
    The Marine Corps, and Marine Corps University in 
particular, is constantly reviewing and revising our PME 
programs to ensure we meet the needs of the operating forces 
and prepare our leaders. We strengthen the faculty and the 
staff of our schools and colleges and continually review our 
curriculum for relevance. We plan infrastructure improvements 
and technology enhancements that we believe will dramatically 
improve the learning environment for our students.
    While we will make our quality resident officer programs 
even better, our current emphasis, as you know from your visit 
down to Quantico, is the improvement of our enlisted PME 
programs. As noted in the ``Issues for Further Studies'' 
section of the report, progress has been made here, but much 
work remains to be done to fully prepare our enlisted leaders.
    Last month, General Amos published his Commandant's 
Planning Guidance identifying professional military education 
as one of his top priorities. In fact, today at 13:30, he is 
holding an in-progress review, which I will participate in, to 
discuss where we are with education.
    Excuse me. His guidance directs that plans be developed to 
increase the number of Marines attending resident officer and 
enlisted education programs and to continue to further develop 
Marine Corps University into a world-class institution. We are 
in the process of developing options to increase attendance in 
our programs without sacrificing quality or desired learning 
outcomes. We believe we have made substantial progress in 
strengthening our faculty, students, and curricula.
    We are also on course to make significant progress in our 
facilities. For example, we have over $120 million in MILCON 
[military construction] programmed over the next 3 years for 
educational facilities. I am also pleased to report that the 
Expeditionary Warfare School Distributed Education Network, or 
EDEN, an item of interest during a subcommittee visit, is now 
fully funded and will be operational as soon as we can procure 
the equipment and implement the concept. The Commandant's 
Planning Guidance and the subcommittee report complement each 
other and provide a good roadmap to improve our already strong 
PME programs.
    Again, we appreciate the support of Congress and 
specifically this subcommittee for military PME, and I stand 
ready to answer your questions. Thank you.
    [The prepared statement of General Neller can be found in 
the Appendix on page 68.]
    Dr. Snyder. Thank you all.
    Mrs. Davis, would you like to begin? [Mrs. Davis indicated 
no.] We will go back and forth on the 5-minute clock here. One 
of the reasons we did this report is it had been some time 
since the Armed Services Committee had really looked at PME. 
There has been a lot going on for the last decade, but I think 
it was also one of those topics that didn't get the attention 
it probably deserved even before the events of the last decade.
    My question is, as you look forward 2 years, 3 years, 5 
years, 8 years, whatever, down the line, what mechanisms do you 
see that are in place to assess how well the PME system is 
doing, the in-residence officer PME system, and does it need to 
be changed, revisited? What are your assessment tools about how 
well the system is working?
    I will--General Neller, let us just begin with you and go 
backwards this time.
    General Neller. We are always in the process of assessing, 
at least internally, how we are doing. Obviously the committee 
report provides an external assessment. Every class that 
graduates from Command and Staff or MCWAR [Marine Corps War 
College], or even Expeditionary Warfare School for our 
captains, we go out to the operating force who receive these 
officers and ask them if they have met the requirement. I mean, 
are they satisfied with what they are receiving.
    Again, I take the response that people's time is valuable 
and short, but we get an almost 100 percent positive response 
on the quality of the education that these officers receive. We 
also ask the officers if they believe that we prepared them for 
their service. And again, their answers, in my opinion, are a 
little bit more candid. But, again, the overwhelming majority, 
90-plus percent, in almost all categories felt the experience 
and the educational experience that they gained while they were 
at Marine Corps University helped them better perform their 
duties, whether it is in a staff or a command position.
    We also look at our own objectives. We use the tasks that 
came out of the Wilhelm Study in 2006 to self-assess ourselves 
as to whether or not we are making progress. As your report 
noted, we do have some facilities and infrastructure issues 
which, in the last year, because of decisions by the Commandant 
to fund facilities which are going to house the infrastructure, 
I really see the new buildings as technology that is just in a 
building. I think we are going to make progress there. So those 
are what we have internally to self-assess.
    Mr. Sitterly. Thank you for that question. I agree, as 
primarily a force provider, it is important that we go to our 
commanders, our combatant commanders, especially in the field, 
to ask if we are providing them officers that have both the 
experience and the education necessary to execute our military 
requirements in a joint environment. For instance, we found 
that we had a gap in our more junior officers and their ability 
to operate as we are deploying folks in this environment, more 
junior than perhaps we had in the past. So we have totally 
revamped now our basic developmental education at the Squadron 
Officers School, an Air and Space Basic Course, to adapt the 
curricula to that.
    Additionally, we found from combatant commanders that they 
valued those students that we put through our School of 
Advanced Air and Space Studies. And so we have increased that 
program so that we are selecting more people to put into that 
program with that curriculum, in addition to that feedback that 
we get from the field. Thank you.
    Mr. Lutterloh. Thank you, Mr. Chairman. In the case of the 
Naval War College, in addition to the internal assessments, I 
would say that there were some other training objectives that 
are completed by the War College. For example, maritime 
component commander training, Joint Staff training for our 
operational commands that actually put the president of the War 
College in training and education situations with COCOMs 
[combatant commanders] in theater two to three times a year. So 
he is getting direct feedback from those leaders on the quality 
of the education.
    In addition to that, the significant war-gaming capability 
at War College has always led to the identification of areas 
where the Navy needs to move in terms of maritime dominance, 
and specifically where the War College needs to move with their 
curricula.
    And finally I would point out that the Military Education 
Coordination Council, our robust participation in that, is what 
leads to driving change into the curricula across the board and 
standardizing it across the services and throughout the joint 
community. Thank you.
    General MacFarland. Well, right now we are in an era of 
persistent conflict. And probably the ultimate indicator of how 
well we are doing in PME will be how well we are doing on the 
battlefield. And we believe that PME is the key to agile 
thinkers. And we are constantly reevaluating and assessing how 
we go about creating creative and adaptive leaders.
    The assessments mentioned by General Neller and others are 
part of our assessment process, both asking the students and 
asking their commanders out there. Another way we can assess 
the value of PME is based on the demand for PME, the officers 
seeking admission to PME, the competition for going to school, 
and also the demand in the field for PME graduates.
    Right now we are frequently asked to hurry up and graduate 
more SAMS, School of Advanced Military Studies, officers. There 
is a high demand for those trained planners out there in the 
force. Obviously, people attach a great deal of importance on 
the value of that professional military educational experience. 
So we are doing something right there. And we are hoping to 
expand that across all of PME.
    Lately, there has been a devaluation in the minds of many 
of our officers of the value of education. They value 
experience. Getting more hash marks on the sleeve is perceived 
as more important than going and sitting in a school. We are 
trying to address that balance with the Army Learning Concept 
2015. And when more officers vote with their feet and try to go 
to school instead of get a third or a fourth tour down range, 
we will know that we are obviously providing value to the force 
and--when members of the force see that.
    General Hix. Mr. Chairman, I endorse the comments of my 
colleagues here, and I will offer a slightly different 
perspective, given my responsibilities for oversight on behalf 
of the chairman.
    Since 2000, my staff and members of the various schools, 
universities, and colleges run by the military have conducted 
44 PAJE visits. And these are Process of Accreditation of Joint 
Education visits not unlike the accreditation that universities 
and colleges go through to offer civilian master's degrees, but 
focused on joint professional military education and their 
adherence to the OPMEP [Officer PME Policy], looking at best 
practices in terms of how they deliver a joint education and 
that sort of thing.
    As part of that review, we also dig into their own 
assessment programs. And each of them has a very comprehensive 
program as they have laid out, focused on not only the 
perspective of the student but also of the customer, which is, 
of course, the commanders, be they service commanders or joint 
operational commanders. And those assessments very clearly 
indicate a demand for additional education, more of what these 
universities and colleges deliver, as well as a reflection from 
many of the students that they were glad that they had gotten 
some of that education before they actually went into an 
assignment.
    I can tell you anecdotally that the staff officers that 
work for me and those that I have worked with in the past in 
assignments at large headquarters, and also in the Pentagon, 
all note the fact that they were leveraging the education they 
received at a War College, be it from the National Defense 
University, ICAF [Industrial College of the Armed Forces], or 
National War College or one of the service schools.
    Lastly, to build off of comments of General MacFarland, the 
demand from the field is also very clear. We have seen this 
from the combatant commands, that they are looking for more 
joint education and actually having it sooner. The throughput 
at the universities and at the Joint Forces Staff College for 
Joint Professional Military Education Level II is challenged to 
meet the demands of the joint authorizations out in the 
combatant commands and now with forces in Iraq and Afghanistan.
    And so we have looked at how to meet that demand more 
broadly. And I think that is your best indicator of whether the 
product that is being put out by those who educate our officers 
is useful, is the fact that they are demanding more of the 
same.
    Mr. Hebert. Sir, as my colleagues have described to you, we 
have a system of measures, if you will, to ensure that we are 
meeting the demands in the future, whether it be the internal 
school practices, assessments, the Military Education 
Coordination Council, which OSD [Office of the Secretary of 
Defense] participates in, as well as the PAJE visits which we 
participate in. We see this whole system of measures, if you 
will, are indicators taken together. Whether or not change is 
required. For our part, OSD is taking the recommendations of 
the committee's report seriously in that we are reconsidering 
our role in this entire enterprise to determine how we can best 
create synergy between the service efforts and the Joint Staff 
efforts and lend to creating an opportunity that in the future 
we can anticipate the needs of the students far in advance of 
when they might be required.
    Dr. Snyder. Mrs. Davis.
    Mrs. Davis. Thank you all for your responses. I was 
interested--I think General Hix first mentioned the fact that 
we are fighting two wars. And I know that in the meetings that 
we had, there was some discussion about the fact that it was 
difficult for people to take time off for PME time, a very, you 
know, big problem that all of the services were experiencing. 
So I just wonder if you could respond to that a little bit more 
in terms of--I think you have talked about the broadening of 
the experiences in many ways.
    There probably couldn't be a better teacher than applying 
the knowledge and the strategic thinking that is really 
required. But I wonder at the same time how difficult a problem 
you think that is and if there is anything else that we should 
be supporting or helping with to be sure that there is 
certainly a high incentive for people to find a way to have 
that time. And again, we are talking not just about thinking 
about fighting the wars that we are fighting today, but the 
future wars and how we get that from those who are in the 
services today, and certainly our officers.
    Anybody want to--you have sort of talked--you obviously 
have plans to think about that. But I wonder if you could just 
focus on that and the extent to which you think that is truly a 
problem and what we are actually doing to send that message.
    General Hix. Ma'am, I will take the first shot, then, as 
you mentioned me by name. I would tell you as part of the PAJE 
process, we look at not only the delivery of in-resident 
education, but also the delivery of nonresident or distributed-
learning education. And as you know, currently JPME II is 
delivered only in-residence. And I think that at the time that 
those strictures were codified, it made sense because the art 
of distributed learning is not what it is today.
    And I have to say from my own perspective of having visited 
several of the colleges in my time as a J7 [Joint Staff 
Operational Plans and Joint Force Development], there are some 
pretty innovative approaches and some very interactive means of 
instruction that certainly did not exist, you know, years ago, 
several years ago. And you actually--in one case, I observed a 
class being conducted where students were in a chat room, 
literally globally, dealing with a problem, and frankly in some 
cases, actually dealing with the problem more as if they would 
be--as if they were actually doing it for real, because they 
weren't all in the same classroom where they could talk and 
make coordination easy.
    So in terms of learning how to, you know, deal with a very 
critical problem, a complex problem, deliver rapidly critical 
thinking, that sort of thing, we have come a long way. And, 
frankly, that is really the basis--and I will harp on this one 
more time--the basis of our legislative proposal to allow us to 
start with looking at the art of the possible and in this case 
the delivery of JPME II in a very controlled environment, 10 
sites across the combatant commands where you have an automatic 
joint pool of officers that provides, you know, one of the key 
points of joint experiences--interaction with other services. 
And it is done at the combatant commands where they are 
demanding more officers have the joint education opportunity. 
And from that, we can then learn to--more about how we deliver 
JPME II in a distributed environment and see if we can then 
transfer that to our combatant command--I am sorry--our service 
colleagues who currently are only able to deliver JPME I credit 
from a distributed learning perspective. Thank you.
    General Neller. I think, Representative Davis, your 
question--and correct me if I am wrong--deals with the kind of 
inevitable tension between deploying and getting to the fight 
and going to school. Again, this is my opinion. I think at the 
beginning--and I think General MacFarland talked about this--
there was a tremendous drive that, you know, you had to get to 
the fight because, you know, for all the good reasons. You 
wanted to participate and test yourself and be involved. But as 
this has gone on longer, I think most people have been, and so 
now they see--take a longer view.
    And so I think there has been a shift and that people 
understanding that, all right, I have been, I am competitive, I 
am still going to be considered qualified for promotion, I need 
to get my education and I get the other benefit of a year where 
my family and I get some stability. And I can't prove that, but 
that is my personal view that I think that is part of the 
reason that the force has been as sustainable as it has, 
because officers have been able to take time off to go to 
school and not take a break but get educated, but at the same 
time have some sort of normalcy in their personal and in their 
family life.
    So I think at least for the foreseeable future, I think 
there will be more and more people who will see school not as 
an inconvenience but as both a benefit for them personally and 
for them professionally. But that tension is always going to be 
there and, again, it is going to depend on where that 
individual officer, where he or she is in their career; are 
they coming from the operating forces and going to school so 
that they feel competent that they have good solid operational 
background? Are they coming from the supporting establishment 
and there is this desire to get back to the fight, it is their 
turn to go again. And professional military education will 
assist them in either way. So we are seeing a slight shift, at 
least in talking in non--I can't document this. This is my 
assessment, that more and more people are seeing the benefit 
and advantage of going to resident PME.
    General MacFarland. Ma'am, General Neller is exactly right, 
as always. But I just wanted to add on a little. The Army has 
recognized that perhaps some of our officers need additional 
incentive to get into the schoolhouse, because without that 
mentoring or coaching to enter resident education, they just 
simply will stay away and continue to rack up additional 
experience.
    So we are trying to put teeth back into our professional 
military education policies where promotion and selection for 
command will be not available to the officers who do not have 
the requisite schooling. So we have kind of drifted away from 
that, under the duress of the demands of the operational force. 
We are coming back to that.
    One of the big challenges we had is the Army is unique in 
that we have gone to universal intermediate-level education. 
All majors are required to attend some form of school, either 
distributed learning, like General Hix mentioned, or resident, 
or a blended version of that with partial resident, partial 
distributed. And we have looked at our capacity for that and 
have expanded that to meet the demand. Now we just need to get 
the officers into the programs. And that is what the policies 
will do.
    Finally, we have looked at our younger officers, the 
captains, and we are looking at a pilot program for a captain's 
career course that doesn't require as much in-residence time, 
and the rest of the resident time will be determined partially 
by a learning assessment prior to attending school so it is 
more modular tailored to the officer rather than industrial 
age--well, this is what year group you are in, so you will 
attend this schooling. It is more learner-centric, officer-
centric. And that is all part of the Army Learning Concept 
2015. Thank you.
    Mr. Lutterloh. Representative Davis, I just would like to 
comment on three things quickly. I agree wholeheartedly with 
General Hix. Distributed JPME II will go a long way to 
providing additional opportunities for our officers to get the 
joint qualification, the joint education that they need in 
their careers to adequately man those joint combatant commands. 
So anything that we can do to facilitate that is very useful. I 
understand very well that there is a trade-off between 10 
months, 10 to 12 months in residence, and the ability to spend 
valuable time in seminars talking and thinking with compatriots 
of other services and even the international and interagency 
community, but there is also tremendous value in a 10-week very 
focused time frame in which those officers are gaining some of 
the very same concepts in joint warfighting that are the items 
that are needed in theater.
    Secondly, I will be leaving next week to travel to Newport 
to travel to the War College to invest an entire day in 
investigating the art of the possible relative to distributed 
learning. Not so much to supplant JPME I or JPME II, but to 
look at innovative ways by which we can educate our officers 
over a prolonged period of time, perhaps through interactive 
distributed seminars, perhaps through war games over a weekend, 
perhaps tailored to certain career points, career milestones. I 
will be investigating those aspects with the War College to see 
where we can go maybe on a different vector than we have 
considered so far.
    The third and last thing is an aggressive policy pursuit. 
So I also agree with General MacFarland here. We have rather 
aggressively addressed some of these issues through policy. We 
combined our surface combatant executive officer and commanding 
officer tours into one, to shorten that period of time aboard 
the ship and provide additional opportunity in the career 
pipeline for advanced education. We have also insisted, policy-
wise, on completion of JPME I prior to assuming command at the 
commander command. We have thought about it at major command 
perhaps for JPME II completion. We continue to aggressively 
pursue policy issues there.
    And in conjunction with our selection process, the review 
that was recommended by the panel, I believe the combination of 
these three things will put us in pretty good position for the 
future. Thank you.
    Mr. Sitterly. If I could just add from the Air Force 
perspective, we face some of the same challenges. And the 
complexity of the current operations does require us, I think, 
to look at both the students, but also the faculty. And we 
value both the depth and the breadth of experience. So for the 
faculty, we want to ensure that we give our instructors the 
opportunity not only to establish their academic credentials, 
but also to bring into the classroom a current operations 
perspective. So there is a very short period of time in a 
career to get a lot of things done from command to staff to, 
you know, deployments, faculty, so on and so forth. So as we 
noted in our report, as General Schwartz noted, we would like 
to continue our dialogue with our colleagues on the faculty-to-
student ratio in the OPMEP. Thank you.
    Mr. Hebert. Representative Davis, I want to capitalize on 
the comments of my colleagues. I would offer that there is no 
one ideal method of delivering professional military education. 
It differs by officer. It differs in many cases by virtue of 
where they are in their individual careers. By having a broad 
spectrum of opportunities to deliver joint professional 
military education or professional military education in the 
services case, we create the diversity of the force and 
thinking that you wouldn't normally have if you had a single 
institution, just as you wouldn't normally send all of your 
engineers to one institution, because they would all come away 
with a very similar thought pattern in many cases.
    You wouldn't--we believe professional military education is 
similarly suited. Having distributed courses at various 
combatant commands attunes those officers who attain school 
with that combatant command a certain knowledge that others may 
not have if they went to National War College or elsewhere. So 
I would just leave you with that thought.
    Dr. Snyder. Maybe I will just direct this question at the 
two of you there. If anyone disagrees--but some of the issues 
you have been talking about, both students and faculties, where 
does the education fit into their career? And early on when we 
were talking with students and even faculty, we would hear 
reports from the combatant commanders that some students were 
going to a school long past the time that they should have, so 
it didn't speak much to them because they had already learned 
that; or they are being sent to a billet where they should have 
had the school, and 2 or 3 months into that billet that 
combatant commander is having to send that person to a school, 
which he wished he had had before they got there.
    And we heard the same thing with faculty, by the way. If 
somebody is assigned to be a faculty member, they really wanted 
to be a wing commander or something.
    But how much are those kind of things that you deal with 
out of your control because they are really a product of the 
personnel system and moving people around? How much control do 
you all have and influence do you have over having a personnel 
system come up so that it really can, in a very sophisticated 
manner, look at both where they are at in their career, where 
they are going to go, where that particular 10-month break, for 
example, fits in an appropriate way both for the student and 
the military.
    Mr. Hebert. If I may lead off. In 2007, when Congress 
enacted legislation which removed the sequencing requirement, 
it created the flexibility for the Department to make sure that 
we could better time that professional military education in 
that officer's career. Whether it be exactly adjacent to that 
Joint Staff tour or perhaps it is just prior to sending him off 
to the desert for a deployment, what it allowed for was a much 
greater flexibility, not less flexibility as we moved forward.
    Now, we have only had a couple of years under this enhanced 
Goldwater-Nichols legislation, but what we are seeing is the 
services do have greater flexibility in timing it to both 
attune it to the officer's future potential to serve and 
additional grades beyond that, but to also consider whether 
that officer is going to be well-timed for a combatant command 
tour, a Joint Staff tour, a future deployment. But the 
underlying problem is what General Hix identified earlier: 
Demand far outstrips our ability to provide or develop 
officers, particularly the JPME II level. We believe we have 
solved that at the JPME I level but not at the JPME II level.
    General Hix. Sir, I will only comment briefly on this, as 
my personal responsibilities are focused on the education 
aspect and that manpower management is not within my purview.
    Dr. Snyder. But it has great influence over what happens.
    General Hix. It does indeed, sir. And I will touch on one 
issue, particularly regarding faculty. In general, especially 
with the joint officers, you know, education in general flows 
appropriately in the macro sense. You go to staff college, you 
get a branch qualifying job, if you will, within your service, 
whether it is a department-head tour or as a staff officer in a 
brigade or a division, and then you get a joint assignment, 
say, as an action officer. You have JPME I, you have staff 
experience, you have combat experience now obviously in many 
cases. Where those O-4s may step up or get promoted while they 
are in a joint assignment, the combatant command does have the 
option, the opportunity to send their officers effectively out 
of cycle to the resident JPME II program down at Joint Forces 
Staff College to kind of add or hone their skills at the 
operational level. That throughput is, admittedly, inadequate. 
And again, that is one of the reasons that we have proposed 
this expansion of nonresident delivery of that program, so that 
more officers at the combatant command level where the majority 
of this demand comes from for JPME II-qualified officers, 
provides that flexibility so the combatant commander doesn't 
have to give up 10 weeks of an officer's time on his staff but 
can work this in parallel, if you will, with their day job and 
do so in a way that is consistent.
    And, in fact, we have looked at some of the ways the 
services deliver this capability. They will actually--you can--
regardless of where you are in the world, if you walk into some 
of the distributed learning seminars that they have, you may be 
assigned to Norfolk. And if you are in Hawaii and you are 
attending the distributed learning course, you actually walk 
into almost--you know, the course is identical in terms of how 
it is delivered. So that is the kind of approach that we are 
looking at, so that as officers move, as they are--if you are 
in CENTCOM [Central Command] and you are coordinating with 
EUCOM [European Command] and you happen to be in Germany and 
not down in Tampa, you can still pick up that course on that 
day and stick with your education opportunities.
    As far as the officers' piece and their participation as 
faculty, as Mr. Hebert noted, the opportunity for JDAL 
positions for non-host faculty is a great step forward. 
However, there are team partners who are from the host faculty 
who are teaching joint matters as well, and, frankly, it has 
been my observation that there is a great synthesis that is 
gained in actually teaching these, you know, joint operational 
approaches. And I think expanding that opportunity so that 
those officers who are teaching joint matters, even though they 
are at the Army War College or at the Command and General Staff 
College, would be an opportunity that would expand 
participation across the board, and, frankly, I think meet some 
of the concerns of the officers that you interviewed.
    Dr. Snyder. Do any of you have any comment on that topic?
    General MacFarland, by the way, I think that my guess is 
that will be a bridge too far, at least at this time, for an 
Army officer, at an Army institution teaching joint matters. I 
think that will probably be considered a bridge too far.
    But I might get in my licks here on the defense bill. I 
think there are a couple of items on the Senate side that they 
have not yet done their defense bill, and I still have some 
optimism that we will get a defense bill out of this Congress 
in the next couple or 3 weeks.
    But this is complicated stuff, and the sooner you can get 
up here, particularly with a new Congress coming in and new 
leadership, the more likely you-all's recommendations will be 
included as part of the defense bill next year, although I 
think a couple of items that we have been supportive of on this 
side didn't get in the Senate side, so if we get a defense 
bill, we will work to preserve those if we can.
    General MacFarland. I appreciate your support on that.
    Dr. Snyder. Several issues I wanted to ask. General 
MacFarland, I think it was you that brought up the issue of 
copyright. We had talked about that. In fact, I think maybe it 
was last year I had some thought that we ought to be able to do 
something on the House side in the defense bill. It turns out 
it is a pretty complicated issue. I know Mr. Platts and Mr. 
Skelton had tried it some years ago, I think, unsuccessfully.
    So if this issue is important, and I think it is, and it 
would seem to me that it is solvable, we may need to get a 
little joint discussion group going on with some smart lawyers 
from the military side, and some smart lawyers from here, but 
also some smart lawyers perhaps from the Judiciary Committee 
and some others to sit down and figure out, okay, where are the 
concerns that you all have and the concerns of those who think 
this isn't perhaps the way to go, and try to sort that out. 
Because we tried to come to some language and met resistance 
along the way.
    So it is easy for us to recognize the problem. I am not 
sure it is going to be as easy as I think, or originally 
thought, to solve it. That will be something you want to work 
on.
    General MacFarland, I think, talked in the most detail 
about getting students from the civilian side. You mentioned 
the interagency swap. Was that your statement? I think it was.
    General MacFarland. It is in my written statement.
    Dr. Snyder. Written statement, yes.
    I would like all of you to comment on that, if you would. 
Our experience was that when we visited some of the seminar 
groups at the different institutions, that our military 
personnel, you know, would have paid money or had a payroll 
deduction if they could have had some additional State 
Department, Foreign Service officers in their seminar groups 
with them.
    How are we doing? And as you are looking ahead, how are we 
doing, do you think, at getting the numbers of civilian 
government personnel from the other agencies of government to 
be in these courses?
    I will start with you, General Neller.
    General Neller. I think our situation is very good, and I 
think it is directly related just to our geography. The fact 
that we are just south of Washington, it is much easier for the 
Federal Government agencies to send someone to be a student 
down at Quantico than it is for them to send them to Kansas, or 
to Alabama, or even to Rhode Island.
    So we are doing very well. I mean, 4 of 27 at MCWAR [Marine 
Corps War College], almost 1 per seminar at Command and Staff. 
So we are very content, and we are happy with the quality of 
person that we get. So I think we are blessed by--hopefully by 
reputation, but probably more so by geography.
    Mr. Sitterly. We are doing better as well, and the quality 
seems to be getting better as well as we continue to go through 
this and those students go back and talk about their 
experiences with their particular agency.
    The other thing we are doing is trying to approach it from 
the other end, and that is we are exploring fellowships where 
we can actually take our military officers into their programs. 
We recently did one at the senior level with the State 
Department. So we are approaching it from both ends. But we 
certainly appreciate what those interagency folks bring to the 
fight.
    Dr. Snyder. I think the Army has been the most aggressive 
about doing swaps, correct?
    General MacFarland. Yes, sir. We have 28 interagency 
fellows right now at the major level, ILE [Intermediate Level 
Education], and I think the number is about 70 at the War 
College fellowship level. But the War College fellows are more 
in academia, think tanks, places like that. Our interagency 
fellows are plugged right into Homeland Security or U.S. 
Department of Agriculture.
    I just had a meeting with FEMA [Federal Emergency 
Management Agency] last week, and they are looking at sending 
two of their officers in exchange for two of ours going to work 
in FEMA for a year. And, of course, State Department SCRS 
[Coordinator for Reconstruction and Stabilization] is a big 
partner of ours, sir.
    Dr. Snyder. Mr. Lutterloh.
    Mr. Lutterloh. Yes, sir. We just recently began expanding 
our fellowships into interagencies, most recently discussions 
about State Department, so it looks like we will be sending a 
couple fellowships to the State Department this year.
    Our faculty at the War College has been in the process of 
transitioning. Our provost and dean of faculty Ambassador 
Peters comes with a very strong background in interagency 
support, as well as some of the other members of the faculty 
that she is drawing into the fold. We are trying to increase 
our student representation from some of the other agencies to 
get that vital discussion going. I think we are making progress 
there.
    The last point I will leave you with is we have also been 
focusing over the years on international cooperation, so that 
that international piece of it is also important to us.
    Dr. Snyder. Yes, it is.
    I think I will address this question to the two of you 
again as the overseers. One of the detail issues that we talked 
about through the last year was it has been difficult to look 
at the services and to come up with an apples-to-apples 
comparison of cost per student, which I think would be helpful 
to everyone. Maybe it is impossible.
    I mean, you know, General Neller mentioned geography. Maybe 
it is a lot cheaper getting somebody to come to Quantico than 
it is to Kansas. I don't know. It seems like it shouldn't be 
that difficult.
    Where are we at with that issue of having the different 
institutions or the different services come up with a cost per 
student of doing the kinds of in-residence PME, or are we 
nowhere?
    Mr. Hebert. Sir, we are further than nowhere, but we are 
not where we should be. So it is one of those issues that 
continues to plague us. The trade-off, as you probably well 
understand, is having the service having a measure that is 
meaningful for them versus a measurement that is not meaningful 
for them but is universally applied to all at the same time. So 
we are working with the services to work through this issue.
    Dr. Snyder. It seems like at some point you will come up 
with a number, I guess, and send it up here, but it is not 
something that is necessarily helpful to us. It seems like it 
would be helpful to you on the institutions if you can see, you 
know, one service has gotten dramatically more efficient. I bet 
that would be helpful in trying to figure out how people save 
money. It is consistent with what Secretary Gates is trying to 
do as far as saving money also. I think over the long haul you 
all are going to try to make the case that you are efficient 
and deserve the money.
    Does anybody else have any comment on that?
    General Hix. Yes, sir, I do. Before I answer that, if I 
could just very briefly on the civilian participation thing.
    Right now we have about, depending on the year, 5 to 10 
percent of the student body across the board is from our other 
agencies, and we expect about 290 next year. Some of the 
challenges that have been raised to us--we do sensing sessions 
as part of this PAJE process--the feedback we get from the 
civilian representatives from these other agencies is, one, 
their agencies are taking a hit by sending them to school 
because they don't have a float.
    As you know, the uniformed services have the ability to 
transfer an officer into the TTHS [Trainees, Transients, 
Holdees, and Students] account, and it doesn't, therefore, take 
an officer out of a staff or out of a brigade or out of a 
battalion to send them to school. There is a replacement 
available. So that is the first thing.
    The second thing is, in general, the other agencies appear 
to manage the billet, not the man, and so when the person, male 
or female, goes off to school, they may or may not have a job 
when they come back, and that is a challenge for them 
personally.
    Then some other feedback we have received is there is 
concern about, you know, some of the regulations on housing, 
and I know this is particularly true with civilian faculty, 
members from other agencies or faculty members who could, if 
they were in the military, live on base, but find it is a 
challenge for them because of regulatory and other issues.
    And the last piece, again anecdotally, is that frankly some 
of your fellow committees are less interested in this 
integration than others, and that translates into whether there 
is support on the Hill for those agencies to be aggressive in 
putting their personnel into our military schools at the degree 
that we certainly would like to see them.
    Dr. Snyder. That may be something as time goes along it 
might be helpful to in some informal way figure out who we need 
to go talk to, because I think, I mean, it is clear to me when 
you talk to the students, both the military and the civilian 
side, they both benefit greatly from it. Particularly when you 
do these swaps, too, that is very helpful to both sides.
    General Hix. Absolutely, sir.
    Sir, just very briefly, on the issue of cost comparisons, 
we are collecting the cost vectors from the services right now. 
They are varied, as you can imagine, and there are a lot of 
drivers which, at this point, because we haven't actually 
gotten all the data, and I can't give you a firm assessment of 
why the costs vary per student, but I am sure there are issues 
of geography, physical plant. I mean, there are a number of 
issues, transportation of those officers to and from the 
schools and that sort of thing. So we will continue to work 
that issue, because it is of interest to all of us.
    Dr. Snyder. I think back, General, on your comment about 
you are getting some pushback from, I guess, the congressional 
side on sharing, having civilians participate. I remember on a 
report that we did on PRTs [Provincial Reconstruction Teams] a 
couple of years ago as coincidentally somebody from my district 
who is a veterinarian with the Department of Agriculture, who 
served in both Iraq and Afghanistan, at some point she sent us 
an e-mail that we included in our report which said--she just 
volunteered, she said, I sometimes feel like there are more 
barriers between the different agencies of our government than 
there are between us and the Iraqis.
    I mean, she really meant it, that she could go out and talk 
to a group of farmers or government Ag [agriculture] people 
that are Iraqi and felt like she made more progress than 
sometimes trying to talk to other agencies of government. So I 
think that is the motivation. We are trying to break down those 
barriers, and maybe it starts here in Congress.
    I will direct it here and then any comments you all have 
again. As we are talking about these slots and the availability 
of PME, if we had a group of National Guard and Marine Corps 
Reserve, Army Reserve, Navy Reserve, Air Force Reserve people, 
would they all feel like there were adequate slots for their 
personnel, adequate opportunities for Guard and Reserve 
personnel?
    Mr. Hebert. I think it would depend largely on which level 
of education we are talking about.
    Dr. Snyder. At which level do you think?
    Mr. Hebert. Well, JPME II throughput is admittedly short of 
demand, both for the Active Component as well as for the 
Reserve Components.
    Dr. Snyder. Disproportionately for the Reserve Component?
    Mr. Hebert. Two percent of officers each year, and 1.5 
percent for the Reserve Component. But I think largely the 
feedback I have gotten from the Reserve Component service 
members dealt with the AJPME [Advanced Joint PME], their 
equivalent JPME II course. And it wasn't so much about the 
course per se, it was the many demands the reservists face. 
They have to balance the demands of a full-time position, 
civilian position, the demands of their Reserve Component, the 
demands of the family, the demands in many cases of pursuing 
advanced education, and the demands of pursuing in some cases 
at the same time professional military education.
    So it is trying to find ways that we can better facilitate 
that within those competing demands so it is not so onerous on 
them, so it doesn't come at a time when all of these issues are 
brought to bear at the exact same time. So from the Reserve 
Component feedback that I have received, that is the largest 
issue.
    I have also received some feedback on the Capstone course 
and not having enough throughput there in order to accommodate 
all the demand they have. So it is the top two levels of PME 
for them.
    General Hix. I would just echo that point, that their real 
focus is on JPME II. AJPME provides them with an equivalent 
accreditation. I think that there is a concern that it is not 
seen as equal to the actual JPME II course. I believe that if 
we are able to expand JPME II into this distributed option, 
that will be the first step in providing a more flexible access 
for our Reserve Component into that curriculum on a larger 
basis.
    There has, however, been a reasonably significant increase 
in the number of Reserve Component, both Reserve Title 10 and 
Title 32 National Guard officers, in both resident JPME II as 
well as in Capstone, so there is a concerted effort to do that. 
But there is a balance, because there is a requirement 
particularly to look at the number of joint billets that are 
populated by reservists above the State level. I know that the 
National Guard has implemented joint headquarters at the State 
level, but above the State level, those National Guard officers 
who--like General Sherlock, who are--actually, I guess, he is a 
reservist--who is the Chief of Staff at AFRICOM [Africa 
Command]. I mean, those kinds of Reserve officers clearly need 
to have access to that level of education.
    But right now, the throughput is a challenge, as your study 
outlines, across the board.
    Dr. Snyder. Do any of you have any comments on that issue?
    General Neller. I think, in the aggregate, that there are 
issues with Reserve-Guard PME. In fact, I have got a meeting 
next week with General Darrell Moore, who is a Reserve general 
who works Reserve Affairs for our manpower, to talk about this. 
I think as mentioned, JPME II is probably the toughest one, but 
I think it goes further down.
    Just as on the officer side you have to have JPME II to be 
considered for flag rank, on the enlisted side, if you are a 
gunnery sergeant, you have to have the advanced course. And we 
recently ran a Reserve advanced enlisted PME course, and we had 
slots for 100, and 105 Marines showed up, and we put them all 
through, because we knew if they got there, that we are going 
to give them the opportunity to go to the course.
    So, I don't know what the answers are. We have slots at 
Command and Staff and the other schools for Reserves, and they 
are filled. We have a very aggressive non-res program through 
the College of Distance Education and Training, where I think 
most of them get their PME for the officer side.
    But just as the Joint Staff and OSD is looking at a 
regional approach to JPME II, in line with what the Commandant 
has asked us to do, one of our COAs [courses of action] is 
probably going to consider a regional campus, more of a hybrid, 
a blended-type seminar, where you have a resident and non-
resident portion, which I think most people would feel is 
potentially superior to a fully non-res on line, and I think we 
will see a lot of our Reserves hopefully, because they are in 
the local area, at lower cost, be able to take advantage of 
that, too.
    So it is an issue. JPME II is probably the biggest, but I 
think it filters all the way through the force.
    Mr. Lutterloh. Yes, sir. Chairman Snyder, I would just add 
that we have increased our Reserve throughput through Navy War 
College over the past 2 years, marginally so, but increasing 
nonetheless, and the Reserve force is actively interested in 
additional quotas through the War College. So we will actively 
pursue that movement forward.
    I would also point out that we have about 2,900 officers in 
the war right now, and nearly half of those are Reserve 
officers. So this education is very well needed in that part of 
the force. How we resource it moving forward, how we address 
that throughput, and our ability to accommodate that throughput 
is going to be something we have to deal with. But we are 
actively engaged in this issue.
    General MacFarland. Sir, I just wanted to add one thing 
about the Total Army School System is really tailored to our 
Reserve officers and noncommissioned officers and giving them 
the opportunity to get professional military education and JPME 
I for our majors.
    We have a brigade with six battalions distributed around 
the country, and it is somewhat blended, where you spend a 
couple weeks in residence, places like Fort McCoy, Wisconsin, 
and then you meet in seminar or staff group-type formats 
instead of your drill periods over the course of a year, and 
then you come back together for another couple of weeks. And we 
have very good faculty out there doing that for our Reserve 
officers. So they get a good JPME educational experience 
through the Total Army School System, even though they don't 
necessarily come to Fort Leavenworth or one of our satellite 
campuses.
    Dr. Snyder. I think, as you all know, this subcommittee and 
the full committee have taken an interest in foreign language 
skills in our military, and, in fact, Mr. Kruse has got a draft 
and updated report I need to sign off here in the next day or 
two from the report we did a year and a half ago.
    I would just like any general comments you have about where 
you see foreign-language training fitting into this. And then 
specifically one of the concerns all along about this is how do 
you get that 25th hour in a 24-hour day for further foreign-
language training?
    The QDR [Quadrennial Defense Review] Independent Review 
Panel suggested one way to get at that is--for your ROTC 
[Reserve Officers' Training Corps] students--is just to 
increase the requirement for what they bring in for increased 
foreign language proficiency. And I would like any of your 
comments about foreign language in general, but also that 
specific comment.
    I am going to start with you again, General Neller.
    General Neller. This is a very difficult issue, Mr. 
Chairman. At one point in Command and Staff College, they tried 
to implement as part of their curriculum a foreign-language 
program, and I think that the consensus was that the effort 
just didn't result in a positive benefit. The Command and Staff 
still does a key leader engagement exercise where they have to 
use an interpreter, but there is not a specific language 
requirement.
    Recently the Marine Corps has required commanders, because 
of key leader engagement mission-essential tasks in theater, 
that they have to do 40 hours of language before they deploy. 
And the Marine Corps, again, this is out of my area, but at the 
basic school, lieutenants still are being assigned a general 
area where they are supposed to develop language, but, again, 
it is on their own time; there is not an enforcement function 
on that.
    Again, you are putting more rocks in the ruck of a ROTC 
student, but I think many people, as I, depending upon where 
you went to undergrad, there was a requirement for a language 
where I went to school, and somehow we managed to survive that. 
And that would bring at least a basic fundamental knowledge of 
language to the force.
    There will have to be some forcing function to, I think, 
get some traction on this, but it is going to be difficult. The 
Marine Corps also has a program called Af-Pak [Afghanistan-
Pakistan] Hands. Actually it has been taken from, I think, when 
General McChrystal was ISAF [International Security Assistance 
Force], and he had a cadre of people, and all the services are 
participating in the Af-Pak Hands program. In fact, we have 
three of those officers coming to work for the university as 
they prepare to deploy, and part of their preparation will be 
language.
    So there is a great interest in it, but my personal opinion 
is we are struggling to some degree to find the time to meet 
all the other additional requirements in addition to the 
language, and it is a work in progress, and there is still much 
left to do.
    Dr. Snyder. You know, there was a--Dr. Fenner and I can't 
remember--it was newspaper report, I think, just within the 
last month that was discussing foreign-language skills, and, 
you know, I remember I had 2 years of--it took me 2 years of 
French to get out of high school and 2 years of French to get 
out of college. You know, if that is what you are talking 
about, you think, okay, what does that have to do with Iraq? As 
the article pointed out, I can't remember who was quoted, it 
said, well, maybe you don't have Arabic skills going into Iraq, 
but the experience of some of our soldiers was the ability to 
talk to the allied soldiers was as important, and so the French 
or Italian or whatever language it was was helpful. But ramping 
up that proficiency level, more than just a 2-year jump to get 
out, may be helpful.
    Mr. Sitterly, did you have something?
    Mr. Sitterly. Yes, Dr. Snyder. The language regional 
expertise and culture issue is one that Secretary Donnelly has 
asked us to look at very seriously, and we have. In addition to 
an extremely robust ROTC program, a very robust Air Force 
Academy language program, we also have just held our second 
Language Enabled Airmen Program, LEAP program we call it, where 
we identify--for the very first board, identify cadets coming 
out of ROTC and the Air Force Academy, and in subsequent boards 
we intend to look at the Total Force; but we identify those 
folks that have a language, either capacity, or they already 
have a proficiency that exists, and then we will take those 
folks and identify them across their career as LEAP airmen, 
language enabled airmen, so that we can send them to some sort 
of intermediate, you know, training courses in order to 
maintain that proficiency level.
    So, in other words, if you bring somebody in, and they have 
no aptitude, no proficiency, to send them out to Monterey to 
the Defense Language School to get them up to a proficiency 
where we could utilize them is a large investment. If they have 
the capability or show the capacity or the proficiency early, 
then we can send them perhaps to an overseas assignment or just 
an immersion program where they can get that proficiency level 
up to 2-2. And our studies show that if you can get the 
proficiency on the DLAB [Defense Language Aptitude Battery] 
score to 2-2, it is a lot easier to maintain that. [Inaudible]
    So in our personnel system then, we will have these folks 
identified. So if we, for instance, have the ability to send a 
C-130 unit or an airman to Germany or Japan, if we can match 
their ability to speak German or Japanese to build sort of a, 
you know, partnership capacity, then we could make that 
decision, all things being equal. So we put a lot into this 
program.
    Mr. Lutterloh. It is a critical issue for us, Mr. Chairman, 
and it comes with a number of initiatives that we have taken 
already and a delicate balance in the end.
    First off, we have got a strong linguist program for our 
cryptologists that gets to the level of 2-2 that is excellent. 
We leverage off that, along with some of the postgraduate 
school education, the masters programs for our foreign area 
officers that focus on language and regional expertise in those 
masters programs. We leverage those two activities to provide 
targeted just-in-time training and education for deploying 
strike groups in units going overseas to get them focused on 
the culture and the region and, to a very minimal degree, some 
of the language idiosyncrasies.
    That said, in general we have increased what we are doing 
at ROTC with some additional scholarships. I think the class of 
2010 out of the Naval Academy had 2 language majors graduate 
and 10 or 11 with minors in language areas graduate. So our 
accession mission is also focused on that language education.
    Lastly, I would focus on the increased throughput. Both the 
foreign area officers and just officers in general, through 
postgraduate school and through our curricula at War College, 
each class which is focused on regional areas has been some of 
the actions we have taken to date.
    The balance that I want to talk about has to do with the 
balance between language education and what we believe is 
inherent to our force in science, technology, engineering, and 
math. So we have recently tried to increase our percentages of 
graduates to 65 percent out of ROTC and the Naval Academy in 
science, technology, engineering and math. So that is where the 
balance is going to come, how we balance language against those 
hard educational curricula.
    General MacFarland. Sir, I just wanted to add, one of my 
additional hats is the Defense Language Institute works for me, 
and so I just wanted to tell you that DLI is doing some really 
good work in developing new instructional techniques for 
language training. The language-training detachments that are 
now global and spread around the world, and the Af-Pak Hands is 
part of that, is an important way that we are infusing language 
training into the field, giving units that are deploying the 
language skills that they need so that there is somebody who is 
language enabled in each platoon and developing our own 
language specialists within the force.
    We have an LTD, a language training detachment, at Fort 
Leavenworth, and we offer electives in language to our 
officers, and every officer is required to study and conduct a 
regional--have a regional elective. So if you have a language 
skill, that language elective is also available so that you can 
do a culture and language study, which is very valuable if you 
are about to deploy somewhere.
    So the Army is right now in the process of developing what 
we call the Army Cultural and Foreign Language Strategy, and, 
in fact, DLI teaches culture-based language. And you have to 
link culture with language instruction, and we think that this 
is really the model for the future.
    How we are going to inject that into our PME for enlisted, 
warrant officers, civilian, and officer is still being studied 
though. But we are looking cradle to grave, pre-commissioning 
through general officer, to ensure that there is a continuum of 
lifelong learning available for those officers with language 
skills.
    Thank you.
    Dr. Snyder. I think since the last time this subcommittee 
had a discussion about foreign language, I forget which TV 
network it was had the embedded reporter, that terrible 
incident where the contracted interpreter was just flat out 
wrong in what they were saying and was exasperating for our 
military officers who thought they were being given false 
information by the local villagers. And it turned out, in fact, 
that they were being given--somebody was putting themselves at 
risk by giving accurate information, but the interpreter didn't 
pick that up. It just seemed to me that was a piece of film 
that ought to be part of a training exercise for a long, long 
time to illustrate this.
    General MacFarland. It is, sir.
    Dr. Snyder. It is. And then I think it was last week, a 
couple of weeks, before Thanksgiving, Susan Davis was a host of 
a breakfast, General Neller, for some of the women Marines--
what do you call those teams that go out?
    General Neller. Female engagement teams.
    Dr. Snyder. They were wonderful women, it was great, one of 
the speakers. But one of the young women brought up her 
frustration with interpreters, the varied skill levels of the 
interpreters they have.
    And the unfortunate part for me was I can remember I think 
it was with Jim Saxton, before the events of 2001, was holding 
classified hearings in this room talking about how we are going 
to get the language skills we need to keep track of what is 
going on with all the areas around the world, and I am thinking 
it must have been a decade now, and we are still having young 
Marine officers tell us we have got a real problem with having 
the right language skills. It just seems like it is hampering 
their activity. But I appreciate the work that you all are 
doing on it.
    I think those are about the things that I wanted to get at. 
Maybe a few closing comments.
    General Neller, you have mentioned enlisted PME, and we did 
hold the one hearing on enlisted PME, and I have to acknowledge 
it since Gunnery Sergeant Hector Soto-Rodriguez is sitting 
right behind you and has been my Marine Fellow for this last 
year. But I appreciate your mention of it. We focus so much on 
the in-residence officer PME, but the enlisted PME is so very, 
very important, and they have some frustrations, too, as you 
know.
    A couple of you acknowledged the presence of Dr. Lorry 
Fenner, who will not be with the committee after this year, and 
the great work that she has done, as has the staff.
    I also want to recognize Julie Zelnick on my staff, who--
you know, you wonder about why do these folks get interested? 
Ike Skelton made a speech a couple of weeks ago about his fear 
that we may be having a separation from the civilian world and 
the military world, and why does a young woman like Julie get 
involved in this? Well, she has got a brother in the military. 
His wife is in the military. They actually let them serve 
together in Iraq because they are lawyers.
    Are they both lawyers, Julie?
    One lawyer in the family, but they let them serve together 
in Iraq as a married couple, which is quite unusual. But when 
you have it that close, then these things become important to 
you. I also have to mention Julie, because since I am leaving, 
she still needs a job.
    But I appreciate all the work you have done on this. Mr. 
Skelton will no longer be here, and I will no longer be here. I 
chose not to run for reelection because I have so many babies 
at home that need their education.
    But this topic is one I know Mr. Wittman is very interested 
in it. I ask unanimous consent--since I am the only person 
here, I will give it--that his statement be included as part of 
record.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 35.]
    Dr. Snyder. But this topic is one that is very important to 
you, it is very important to the military, it is very important 
to the Congress. It is not going to go away. And I appreciate 
all the work that you have done, and it has been an honor to 
chair the committee.
    We are adjourned.
    [Whereupon, at 10:37 a.m., the subcommittee was adjourned.]


=======================================================================



                            A P P E N D I X

                           November 30, 2010

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 30, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 63159.001
    
    [GRAPHIC] [TIFF OMITTED] 63159.02
    
    .eps[GRAPHIC] [TIFF OMITTED] 63159.041
    
    .eps[GRAPHIC] [TIFF OMITTED] 63159.042
    
    .eps[GRAPHIC] [TIFF OMITTED] 63159.003
    
    [GRAPHIC] [TIFF OMITTED] 63159.004
    
    [GRAPHIC] [TIFF OMITTED] 63159.005
    
    [GRAPHIC] [TIFF OMITTED] 63159.006
    
    [GRAPHIC] [TIFF OMITTED] 63159.007
    
    [GRAPHIC] [TIFF OMITTED] 63159.008
    
    [GRAPHIC] [TIFF OMITTED] 63159.009
    
    [GRAPHIC] [TIFF OMITTED] 63159.010
    
    [GRAPHIC] [TIFF OMITTED] 63159.011
    
    [GRAPHIC] [TIFF OMITTED] 63159.012
    
    [GRAPHIC] [TIFF OMITTED] 63159.013
    
    [GRAPHIC] [TIFF OMITTED] 63159.014
    
    [GRAPHIC] [TIFF OMITTED] 63159.015
    
    [GRAPHIC] [TIFF OMITTED] 63159.016
    
    [GRAPHIC] [TIFF OMITTED] 63159.017
    
    [GRAPHIC] [TIFF OMITTED] 63159.018
    
    [GRAPHIC] [TIFF OMITTED] 63159.019
    
    [GRAPHIC] [TIFF OMITTED] 63159.020
    
    [GRAPHIC] [TIFF OMITTED] 63159.021
    
    [GRAPHIC] [TIFF OMITTED] 63159.022
    
    [GRAPHIC] [TIFF OMITTED] 63159.023
    
    [GRAPHIC] [TIFF OMITTED] 63159.024
    
    [GRAPHIC] [TIFF OMITTED] 63159.025
    
    [GRAPHIC] [TIFF OMITTED] 63159.026
    
    [GRAPHIC] [TIFF OMITTED] 63159.027
    
    [GRAPHIC] [TIFF OMITTED] 63159.028
    
    [GRAPHIC] [TIFF OMITTED] 63159.029
    
    [GRAPHIC] [TIFF OMITTED] 63159.030
    
    [GRAPHIC] [TIFF OMITTED] 63159.031
    
    [GRAPHIC] [TIFF OMITTED] 63159.032
    
    [GRAPHIC] [TIFF OMITTED] 63159.033
    
    [GRAPHIC] [TIFF OMITTED] 63159.034
    
    [GRAPHIC] [TIFF OMITTED] 63159.035
    
    [GRAPHIC] [TIFF OMITTED] 63159.036
    
    [GRAPHIC] [TIFF OMITTED] 63159.037
    
    [GRAPHIC] [TIFF OMITTED] 63159.038
    
    [GRAPHIC] [TIFF OMITTED] 63159.039
    
    [GRAPHIC] [TIFF OMITTED] 63159.40x
    
                                .eps<all>

</pre></body></html>
